No. 19-159
In the

Supreme Court of the United States
__________________
CARLOS TAPIA,
v.
NEW YORK,
__________________

Petitioner,

Respondent.

On Petition for Writ of Certiorari to the
New York Court of Appeals

__________________

BRIEF IN OPPOSITION
__________________
DARCEL D. CLARK
District Attorney
Bronx County
NANCY D. KILLIAN
Appeals Bureau, Chief

JAMES J. WEN
Assistant District Attorney
Counsel of Record
Office of the District Attorney
Bronx County
198 East 161st Street
Bronx, New York 10451
(718) 838-6669
wenj@bronxda.nyc.gov

Counsel for Respondent

October 31, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Whether the admission of a police officer’s out-ofcourt statement regarding a crime, as contained in his
grand jury testimony, comports with the Confrontation
Clause of the Sixth Amendment to the United States
Constitution, when the officer testifies at trial, is
subject to cross-examination, but does not remember
the incident.

ii
STATEMENT OF RELATED PROCEEDINGS
There are no other court proceedings directly
related to this case.

iii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iv
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
REASONS TO DENY THE WRIT. . . . . . . . . . . . . . 12
I.

THERE IS NO GENUINE CONFLICT
AMONG THE LOWER COURTS . . . . . . . . . 12

II.

THE NEW YORK COURT OF APPEALS
CORRECTLY HELD THAT THE
ADMISSION OF COSGROVE’S GRAND
JURY TESTIMONY DID NOT VIOLATE
THE CONFRONTATION CLAUSE . . . . . . . 17

III.

THIS CASE IS A POOR VEHICLE FOR
RESOLVING THIS ISSUE . . . . . . . . . . . . . . 30

IV.

THERE IS NO COMPELLING REASON TO
REVIEW THIS ISSUE NOW . . . . . . . . . . . . 32

V.

ANY ERROR WAS HARMLESS . . . . . . . . . 33

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

iv
TABLE OF AUTHORITIES
CASES
Blunt v. United States,
959 A.2d 721 (D.C. 2008) . . . . . . . . . . . . . . . 21, 26
California v. Green,
399 U.S. 149 (1970). . . . . . . . . . . 17, 18, 19, 20, 27
Cookson v. Schwartz,
556 F.3d 647 (7th Cir. 2009). . . . . . . . . . . . . 14, 15
Crawford v. Washington,
541 U.S. 36 (2004). . . . . . . . . . . . . . . . . . . . passim
Delaware v. Fensterer,
474 U.S. 15 (1985). . . . . . . . . . . . . . . 18, 20, 23, 26
Diggs v. United States,
28 A.3d 585 (D.C. 2011) . . . . . . . . . . . . . . . . 26, 27
Douglas v. Alabama,
380 U.S. 415 (1965). . . . . . . . . . . . . . . . . . . . . . . 25
Goforth v. State,
70 So. 3d 174 (Miss. 2011) . . . . . . . . . . . . . passim
Holliday v. Minnesota,
555 U.S. 856 (2008). . . . . . . . . . . . . . . . . . . . . . . 32
Leverton v. Colorado,
138 S. Ct. 1265 (2018). . . . . . . . . . . . . . . . . . . . . 32
Michigan v. Long,
463 U.S. 1032 (1983). . . . . . . . . . . . . . . . . . . 13, 14
In re N.C.,
105 A.3d 1199 (Pa. 2014) . . . . . . . . . . . . . . . 16, 17

v
People v. Rivera,
84 N.Y.2d 766 (1995) . . . . . . . . . . . . . . . . . . . . . 33
People v. Savinon,
100 N.Y.2d 192 (2003) . . . . . . . . . . . . . . . . . . . . . 4
People v. Tapia,
32 N.Y.3d 1017 (2018) . . . . . . . . . . . . . . . . . . . . 11
Sibron v. New York,
392 U.S. 40 (1968). . . . . . . . . . . . . . . . . . . . . . . . 32
Smith v. State,
25 So. 2d 264 (Miss. 2009) . . . . . . . . . . . . . . 21, 22
State v. Holliday,
745 N.W.2d 556 (Minn. 2008). . . . . . . . . 21, 22, 32
State v. Legere,
157 N.H. 746 (2008) . . . . . . . . . . . . . . . . . . . . . . 21
State v. Leverton,
405 P.3d 402 (Colo. App. 2017) cert. denied,
No. 17SC311, 2017 WL 4391829
(Colo. Oct. 2, 2017) . . . . . . . . . . . . . . . . . . . . . . . 32
State v. Pierre,
277 Conn. 42 (2006) . . . . . . . . . . . . . . . . . . . . . . 21
State v. Price,
146 P.3d 1183 (Wash. 2006) . . . . . . . . . . . . . . . . 21
United States v. Ghilarducci,
480 F.3d 542 (7th Cir. 2007). . . . . . . . . . . . . 14, 15
United States. v. Milton,
8 F.3d 39 (D.C. Cir. 1993) cert. denied,
513 U.S. 919 (1994) . . . . . . . . . . . . . . . . . . . 27, 28

vi
United States v. Owens,
484 U.S. 554 (1988). . . . . . . . . . . . . . . . . . . passim
United States v. Torres,
845 F.2d 1165 (2d Cir. 1988) . . . . . . . . . . . . . . . 31
United States v. Torrez-Ortega,
184 F.3d 1128 (10th Cir. 1999). . . . . . . . . . . . . . 25
Woodall v. State,
336 S.W.3d 634 (Tex. Crim. App. 2011) . . . . . . . 21
CONSTITUTION
U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . . passim

1
INTRODUCTION
It is well established that the Confrontation Clause
of the Sixth Amendment gives the accused the right “to
be confronted with the witnesses against him[,]” which
entails an opportunity to cross-examine adverse
witnesses, as well as to face his accusers before a jury.
See U.S. Const. amend. VI. But what happens if a live,
testifying witness cannot remember the facts of the
case, and his prior, out-of-court statement is introduced
at trial? Does the witness’ memory loss deprive the
defendant of his promised opportunity for crossexamination in violation of his confrontation rights?
This Court has already addressed this issue in
United States v. Owens, 484 U.S. 554 (1988): No, the
Confrontation Clause does not bar the introduction of
an out-of-court statement of a testifying witness with
memory loss, because the Clause “guarantees only an
opportunity for effective cross-examination, not crossexamination that is effective in whatever way, and to
whatever extent, the defense might wish.” See id. at
559 (citations and quotation marks omitted). Rather,
“[i]t is sufficient that the defendant has the opportunity
to bring out such matters as the witness’ bias, his lack
of care and attentiveness, his poor eyesight, and even
(what is often a prime objective of cross-examination)
the very fact that he has a bad memory.” Id. (citations
omitted). Moreover, Owens’ vitality is undisturbed by
this Court’s seminal decision in Crawford v.
Washington, 541 U.S. 36 (2004), which underscored the
Clause’s traditional guarantee of a witness’ presence at
trial to be “test[ed] in the crucible of crossexamination.” Id. at 61.

2
Accordingly, certiorari should be denied because
there is no genuine split among the federal circuits or
state courts of last resort in this long-resolved
confrontation question, as the rule set forth in Owens
has been applied consistently throughout the lower
courts. Certiorari, therefore, should be reserved for a
case that truly implicates a potential divide and can
provide meaningful guidance in its resolution. This is
not that case.
Moreover, the New York Court of Appeals correctly
identified and applied Owens in this case, finding that
the lack of memory of the retired police witness did not
render him unavailable under the Confrontation
Clause because he testified at trial, where his out-ofcourt statement from his grand jury testimony was
admitted, and he was subjected to cross-examination.
Although the witness could not remember the incident,
his cross-examination was not, as petitioner contends,
an “empty procedure” (petition, p. 1 (quoting Crawford,
541 U.S. at 74 (Rehnquist, C.J., concurring in the
judgment))) as the defense was able to effectively
emphasize the witness’ lack of memory and impugn the
accuracy of the transcription of his prior statement.
And even if this question were otherwise worthy of
certiorari, this Court’s judicial discretion cautions
against reviewing this particular case because
petitioner had demanded that this witness be called to
testify, petitioner has been deported, and finally, any
error regarding the witness’ testimony was harmless.

3
STATEMENT OF THE CASE
At trial, Sergeant Charlie Bello testified that on
November 2, 2008, he was driving Lieutenant James
Cosgrove back to the police precinct at about 3:30 a.m.
when he saw petitioner “body slam” the victim,
Alejandro Mejia, in the street outside a bar and drag
him between two parked cars. App. 2a. The officers
exited their vehicle to intervene and, while Cosgrove
pulled petitioner off the victim, Bello stopped another
man who was “fidgeting with his waistband” and
running towards the altercation. Id.; Court of Appeals
Appendix (C.A. App.) 205. After Cosgrove separated the
victim from petitioner, Bello noticed the victim was
“bleeding profusely from his face and neck.” Id.; see
C.A. App. 219. Petitioner and the other man were
arrested.1 Bello observed a shattered beer bottle on the
ground where the victim had been assaulted. App. 2A.
The victim testified at trial that the attack started
when he was struck from behind and fell to the ground.
C.A. App. 71. Defenseless, all the victim could do was
try to cover himself with his arms while he was being
punched, kicked, and slammed against parked cars.
C.A. App. 73; see App. 2a-3a. The victim felt “something
warm running down,” and he realized that he had been
bleeding from cuts “all over [his] face.” C.A. App. 73,
167; see App. 2a-3a. Although the victim identified
petitioner as one of his two assailants, he did not know
which of the men had slashed his face. C.A. App. 184;

1

The People presented the case against the other apprehended
individual to the grand jury, but the grand jury declined to vote a
true bill.

4
see App. 3a.2 The physician who treated the victim at
the emergency room testified that the five lacerations
to the victim’s face and neck were “consistent with
being struck with a sharp cutting instrument,” such as
a piece of glass. App. 3a; Court of Appeals
Supplemental Appendix (C.A. Supp. App.) 33-34. The
physician explained that the victim’s neck lacerations
were “potentially life threatening” because of their
proximity to the carotid artery and the vena cava. App.
3a; C.A. Supp. App. 26-28, 83.
During the People’s case, defense counsel informed
the trial court that she would seek a missing witness3
charge if the People did not call Cosgrove to testify.
App. 3a. The People stated that Cosgrove had retired
from the police department and had no independent
recollection of the case. If required to call him to avoid
a missing witness charge, the People would seek to
introduce his grand jury testimony as a past
recollection recorded. Id. As relevant here, defense
counsel advanced two conflicting arguments. Counsel
contended that Cosgrove’s lack of memory rendered
him unavailable for cross-examination, thus violating
2

Petitioner claims that the victim “could not see either of the
[assailants] until the attack ended” (petition, p. 5). Petitioner,
however, ignores the fact that the victim testified, “There were two
people[] who were hitting me, and [petitioner] is one of the persons
who did that” (C.A. App. 184), and that “I did see them hitting me,
but I could not say whether it was him or the other guy [who did
the slashing].” C.A. App. 184.

3

“The ‘missing witness’ instruction allows a jury to draw an
unfavorable inference based on a party’s failure to call a witness
who would normally be expected to support that party’s version of
events.” People v. Savinon, 100 N.Y.2d 192, 196 (2003).

5
petitioner’s right to confrontation under Crawford v.
Washington, 541 U.S. 36 (2004). Nonetheless, according
to counsel, Cosgrove was available to the People for the
purpose of the missing witness charge. App. 3a-4a.
When confronted by the court with these inconsistent
positions and offered the opportunity to withdraw her
application for the missing witness charge, counsel
declined. App. 3a-4a. Ultimately, the trial court found
that Cosgrove was “literally subject to crossexamination by being on the witness stand under oath
and passed to [the defense] as a witness for cross
examination.” App. 4a; C.A. App. 331. In addition, the
trial court held that Cosgrove’s prior grand jury
testimony would potentially be admissible as a past
recollection recorded because he was in attendance and
subject to cross-examination. App. 4a.
The People called Cosgrove to the stand, and he
testified that on November 2, 2008, he had been
working an 11:00 p.m. to 7:45 a.m. shift, in uniform,
with Bello. App. 4a. Based on his review of police
paperwork, Cosgrove was also able to testify that he
assisted in arresting two individuals at the scene, but
he could not independently recall the circumstances
leading to petitioner’s arrest. Id. The People then
sought to introduce Cosgrove’s grand jury testimony as
a past recollection recorded: Cosgrove testified that he
appeared before the grand jury four days after the
offense; that the event was fresh in his mind at the
time; that he testified truthfully and accurately before
the grand jury; and that his review of the stenographic
transcript of his prior testimony did not refresh his
present recollection of the events. App. 4a. Finding the
appropriate evidentiary foundation established, the

6
court allowed a portion of Cosgrove’s grand jury
testimony to be read into the record (App. 4a), in which
the prosecutor read the question and Cosgrove read the
responses (C.A. App. 361-62, 364):
Q: Question: Okay. Can you briefly describe the
circumstances that le[d] up to the arrest that
night, what you observed?
A: Answer: I was in the passenger seat of a
parked Police Department’s vehicle. We
proceeded southbound on Jerome Avenue
from the vicinity of 178th Street. As we [were]
going to East Clarke Place, we noticed a
disturbance in front of a bar. We exited the
vehicle. There was a van between myself and
the crowd of people. Couldn’t see what [was]
going on. As I went around the rear of the
van, I noticed a person standing above
another person. The person on the floor was
bleeding and the other person was kicking
him in the head.
Q: Question: The person that was kicking him
in the head[,] that individual’s name?
A: Answer: Mr. Tapia.
C.A. App. 364-65. Another portion of the grand jury
transcript was read into the record:
Q: Question: Did you happen to recover
anything of an evidentiary nature from
either defendant?
A: Answer: No.

7
Q: Question: Did you observe anything around
on the floor by the – where the defendant
was standing over the complainant?
A: Answer: Yes.
Q: [Question:] What was that?
A: Answer: There was glass all over the floor.
C.A. App. 365-66. The trial court then gave the limiting
instruction that “a memorandum of a past recollection
is not of itself independent evidence of the facts
contained therein. It is auxiliary to the testimony of the
witness.” App. 5a; C.A. App. 366.
On cross-examination, defense counsel initially
questioned Cosgrove about his partnership with Bello,
and Cosgrove replied that Bello was his partner and
driver on the night of petitioner’s arrest. App. 5a.
Cosgrove testified that he had been to the area of the
assault, which was located “right across [the street]
from the [police] precinct,” on various occasions “to
intervene in bar fights.” App. 5a; C.A. App. 355, 373.
Defense counsel then focused her inquiry on the
circumstances surrounding Cosgrove’s grand jury
testimony. Cosgrove repeatedly testified that he did not
remember the circumstances leading to petitioner’s
arrest, even after reviewing his grand jury testimony,
explaining that he “did midnights for most of [his]
career and a fight outside of a bar [did not] really stick
out in [his] mind [because he] responded to a lot of
them.” App. 5a; C.A. App. 355. Defense counsel not only
focused on Cosgrove’s lack of present recollection but
also elicited that Cosgrove’s grand jury testimony that

8
he had been a passenger in a “parked police
department vehicle” was probably supposed to read
“marked” police vehicle. App. 5a; C.A. App. 369.
Although Cosgrove testified that “[he] could swear to
[the grand jury transcript’s] accuracy that if [he had]
testified to something, that it’s true” (C.A. App. 37071), he admitted that he did not review a copy of the
transcript other than in preparation for trial and could
not swear that the official court reporter’s transcription
of his grand jury testimony was accurate because of his
lack of independent recollection. App. 5a; C.A. App.
370-72.
After the close of evidence, the trial court submitted
three counts to the jury under a theory of acting in
concert: assault in the first degree; attempted assault
in the first degree; and assault in the second degree.
App. 6a. In its final charge, the trial court instructed
the jury on how to consider Cosgrove’s grand jury
testimony as a past recollection recorded. The court
reminded the jury that evidence of past recollection
recorded was auxiliary to the witness’s trial testimony
and not independent evidence of the facts. The court
further instructed as follows:
A memorandum of a past recollection is not of
itself independent evidence of the facts
contained therein. Although it may be received
in evidence in connection with and as an
auxiliary to the testimony of the witness, its use
is not regulated by the rules governing
documentary evidence.
The witness swears to the facts contained in the
memorandum not from memory, but because of

9
confidence in the correctness of the writing. The
writing thus becomes a present evidentiary
statement verified by the oath of that witness.
Therefore, you may consider the witness had
knowledge at the time the testimony was taken
of the events he testified to and whether he saw
the reported testimony at or near the time the
testimony was taken and recognized it at the
time as containing a true statement of facts
within his own knowledge.
You may consider the witness’ testimony on this
issue in deciding what weight to give the
statements contained in the former testimony.
You are at liberty to accept as much as you think
accurate and disregard the rest or accept or
disregard it in its entirety.
C.A. App. 511-12; see App. 6a-7a.
The jury convicted petitioner of attempted assault
in the first degree, acquitting him of the top count of
assault in the first degree. App. 7a.
On direct appeal, the New York Supreme Court’s
Appellate Division, First Department, affirmed
petitioner’s conviction by a vote of 3-2. Id. The court
held that it was a proper exercise of discretion for the
trial court to admit Cosgrove’s grand jury testimony as
a past recollection recorded. App. 45a. The court found
that the People had laid a proper foundation for the
admission of Cosgrove’s grand jury testimony and there
was no violation of the Confrontation Clause because
Cosgrove testified at trial and was subject to crossexamination. App. 46a. The court further held, “[i]n

10
any event, there was no prejudice to defendant because
[the grand jury testimony] was entirely cumulative of
Officer Bello’s testimony.” Id.4 The court also concluded
that the evidence was legally sufficient to support the
conviction (App. 44a-45a), but two Appellate Division
justices dissented on that sole ground and would have
reduced petitioner’s conviction to attempted second
degree assault. App. 46a. The dissenters contended
that the evidence was not legally sufficient because it
did not establish beyond a reasonable doubt that
petitioner, alone or acting in concert, cut the victim
with a dangerous instrument. Id. One of the dissenting
Justices granted petitioner leave to appeal to the New
York Court of Appeals. App. 7a.
The New York Court of Appeals affirmed by a 4-3
vote. Pertinently, the majority held that the admission
of Cosgrove’s grand jury testimony did not violate the
Confrontation Clause under the Sixth Amendment of
the United States Constitution, relying on this Court’s
decision in United States v. Owens, 484 U.S. 554 (1988),
in which this Court “directly addressed the situation
4

Petitioner claims that the Appellate Division reached this
conclusion by “mistakenly attributing to Bello testimony that
petitioner was ‘kicking the victim in the head while the victim was
bleeding’” (petition, p. 8, n.1). While it is true that the Appellate
Division misattributed this observation to Bello, it is not clear how
dispositive this was to the court’s conclusion that Cosgrove’s grand
jury testimony was cumulative. The court’s conclusion was
supported by the fact that Cosgrove’s grand jury testimony was, as
the New York Court of Appeals found, “consistent with Bello’s trial
testimony” (App. 5a) and, therefore, added little to the evidence
already presented at trial with the exception of the additional “fact
that Cosgrove saw [petitioner] kick the victim in the head” (App.
5a).

11
where a witness was unable to explain the basis for a
prior out-of-court identification due to memory loss.”
See App. 15a-16a. In light of this Court’s clear
precedent, the court observed that “the right to
confrontation guarantees not only the right to crossexamine all witnesses, but also the ability to literally
confront the witness who is providing testimony
against the accused in a face-to-face encounter before
the trier of fact.” Id. Accordingly, “[t]he Confrontation
Clause is satisfied when these requirements are
fulfilled – even if the witness’s memory is faulty.” App.
16a. The majority, therefore, concluded that
“Cosgrove’s presence at trial as a testifying witness,
where he was subjected to cross-examination before the
trier of fact who must assess the credence and weight
to be accorded to his testimony as a whole, precludes
[petitioner’s] Confrontation Clause argument.” App.
17a.
After petitioner completed his sentence, he was
deported from the United States. See App. 7a, n.3.5

5

During the pendency of petitioner’s appeal to the New York Court
of Appeals, the People moved to dismiss the appeal because of
petitioner’s removal from the United States, which was
independent of his criminal conviction. The Court of Appeals
denied the motion to dismiss the appeal. People v. Tapia, 32
N.Y.3d 1017 (2018).

12
REASONS TO DENY THE WRIT
I.

THERE IS NO GENUINE CONFLICT
AMONG THE LOWER COURTS.

Petitioner fails to identify any genuine split of
authority among any of the federal circuit courts or
state courts of last resort that requires this Court’s
intervention. Petitioner argues that the writ should be
granted because “[t]he decision below deepens a split
among federal courts of appeals and state appellate
courts on whether a witness’s physical presence at trial
is enough to vindicate the defendant’s confrontation
right when intervening memory loss prevents the
witness from defending or explaining his prior
testimonial statement” (petition, pp. 10-11). However,
no such split exists because there is no such case from
any federal circuit court or state court of last resort
that holds that where a live testifying witness’ out-ofcourt statement is introduced at trial, the defendant’s
federal confrontation rights are violated if the witness
cannot remember the facts described in his prior
statement, and therefore, cannot defend or explain his
statement on cross-examination.
In asserting discord among the lower courts’
Confrontation Clause jurisprudence, petitioner
principally relies on the Supreme Court of Mississippi’s
decision in Goforth v. State, 70 So. 3d 174 (Miss. 2011).
The Goforth court “squarely held that it violates a
defendant’s confrontation right to admit a witness’s
prior out-of-court testimonial statement, where, by the
time of trial, the witness experienced a ‘total lack of
memory’ regarding the events described in a prior
statement” (petition, p. 11). Petitioner’s reliance is

13
misplaced because the Supreme Court of Mississippi
expressly decided the confrontation issue on state
constitutional grounds: “Since Article 3, Section 26 of
the Mississippi Constitution provides defendants a
constitutional right to confront the witnesses against
them, we base our opinion on its provisions. Federal
caselaw serves as our guide, but Mississippi
jurisprudence compels the result.” Id. at 183 (internal
citations omitted). The court even later reiterated, “We
find that, under the Mississippi Constitution, [the
defendant] did not have a constitutionally adequate
opportunity to cross-examine [the witness] at trial or
beforehand.” Id. at 187.
Although petitioner appears to recognize this
obstacle, he nonetheless suggests that the purported
split survives because “[Goforth] turned exclusively on
Crawford and federal precedent” (petition, p. 12, n.2).
On the contrary, in Michigan v. Long, 463 U.S. 1032
(1983), which was even cited in Goforth (70 So. 3d at
183), this Court held:
If a state court chooses merely to rely on federal
precedents as it would on the precedents of all
other jurisdictions, then it need only make clear
by a plain statement in its judgment or opinion
that the federal cases are being used only for the
purpose of guidance, and do not themselves
compel the result that the court has reached. In
this way, both justice and judicial
administration will be greatly improved. If the
state court decision indicates clearly and
expressly that it is alternatively based on bona
fide separate, adequate, and independent

14
grounds, we, of course, will not undertake to
review the decision.
Long, 463 U.S. at 1041. Accordingly, there can be no
serious dispute that the decision in Goforth was based
on the Mississippi Constitution and its jurisprudence
and, therefore, does not implicate the federal
confrontation rights at issue in this case.
Petitioner’s reliance on Seventh Circuit dicta fares
no better. In both Cookson v. Schwartz, 556 F.3d 647
(7th Cir. 2009) and United States v. Ghilarducci, 480
F.3d 542 (7th Cir. 2007), the Seventh Circuit
hypothesized that a witness’ total memory loss could
possibly render him unavailable for confrontation
purposes. See Cookson, 556 F.3d at 651; Ghilarducci,
480 F.3d at 548-49. Initially, in both cases, the Seventh
Circuit concluded the defendants’ confrontation rights
had not been violated, and neither case involved a
witness with total memory loss, as petitioner asserts
was the case for Cosgrove. See Cookson, 556 F.3d at
652; Ghilarducci, 480 F.3d at 549.
Cookson theorized that Crawford’s footnote nine,
which states that “when the declarant appears for
cross-examination at trial, the Confrontation Clause
places no constraints at all on this use of his prior
testimonial statements” (Crawford, 541 U.S. at 59 n.9),
is “not dispositive” as to whether he is available,
pointing to subsequent language in the footnote that
the Clause does not bar admission of a statement if the
declarant is present at trial “to defend or explain it.”
See Cookson, 556 F.3d at 651. But ultimately,
Cookson’s remarks about the potential implications of
a witness’ total memory loss on the defendant’s federal

15
confrontation rights went unaddressed, since the
witness in the case was able to recall the underlying
incident (but could not recall making the prior
statement) during cross-examination, and, therefore,
the Seventh Circuit held that there was no violation of
the Confrontation Clause. Id. at 652. To the extent
Cookson’s reading of Crawford’s footnote nine has any
value in establishing a split, that interpretation has
not percolated in any other federal circuit court of
appeals.
Moreover, Ghilarducci casts doubt on whether it
can be said that Cosgrove suffered the sort of “total
memory loss” speculated about in Cookson. In
Ghilarducci, the Seventh Circuit determined that the
witness did not suffer total memory loss because “[b]y
referencing documents that memorialized his
interactions with [the defendant], [the witness] was
also able to answer some questions on that topic.” 480
F.3d at 549. Similarly, with the aid of police
paperwork, Cosgrove was able to answer background
questions about his police career, the night of the
arrest, and the circumstances surrounding his grand
jury testimony. See App. 4a-5a.
Indeed, Cosgrove’s lack of memory is not even
analogous to the “total memory loss” experienced by the
witness in Goforth. In Goforth, the witness made his
statement to police, but before trial, he was injured in
an automobile accident that “substantially impaired his
physical and mental conditions,” and he testified that
“he could not remember anything that had occurred
two years prior to the wreck.” 70 So.3d at 182. The
witness’ memory loss was so severe, he stated at trial,

16
“I can’t remember probably half my life.” Id. He
recalled neither the incident nor giving his statement
to police, and he could only “guess” that he had written
the statement based on his signature. Id. In contrast,
Cosgrove stated that “[t]he case happened almost five
years ago. I left the police department a year ago.
When I left, I put the police department behind me. I
concentrate on what I do now[,] which is be[ing] with
my family.” C.A. App. 352. Cosgrove later added that
memories of “certain [arrests] stick out and this
doesn’t” because he “did midnights for most of [his]
career and a fight outside of a bar [did not] really stick
out in [his] mind. [He] responded to a lot of them . . .”
C.A. App. 355. Thus, unlike the witness in Goforth,
Cosgrove’s memory of this specific incident faded
through the natural passage of time and was not the
result of any physical disability or mental impairment.
Finally, petitioner cites to some cases, including
decisions of lower state courts, that “have recognized
that even when a witness is physically present in the
courtroom, the witness can be so nonresponsive as to
implicate the confrontation right” (petition, p. 13). In
particular, he cites In re N.C., 105 A.3d 1199 (Pa.
2014), a case in which the Pennsylvania Supreme
Court excluded testimony where a child witness curled
into a fetal position at trial and remained unresponsive
and unable to speak. Id. at 1206, 1209. Petitioner’s
observation is unremarkable and inapposite to
resolving the question presented here. Moreover, In re
N.C. drew a notable distinction between the child
witness’ unresponsiveness with the situation of a
forgetful witness, like Cosgrove, who was otherwise

17
responsive to questioning and did not lack the capacity
to offer testimony. See id. at 1216-17.
Accordingly, there is no genuine conflict among the
lower courts and no reason to think that further
guidance is necessary.
II.

THE NEW YORK COURT OF APPEALS
CORRECTLY HELD THAT THE
ADMISSION OF COSGROVE’S GRAND
JURY TESTIMONY DID NOT VIOLATE
THE CONFRONTATION CLAUSE.

Unsurprisingly, in light of the overwhelming weight
of authority on this confrontation issue, the New York
Court of Appeals ruled precisely in accord with this
Court’s precedent. This Court has long held that when
a witness appears at trial, is placed under oath,
answers questions to the best of his ability, but cannot
answer some questions due to a lack of memory, the
admission of his prior, out-of-court statements does not
run afoul of the Confrontation Clause. See, e.g., Owens,
484 U.S. at 559-60; California v. Green, 399 U.S. 149
(1970).
In California v. Green, this Court stated that
“where the declarant is not absent, but is present to
testify and to submit to cross-examination, our cases,
if anything, support the conclusion that the admission
of his out-of-court statements does not create a
confrontation problem.” 399 U.S. at 162. Notably,
Justice Harlan concurred, stating that when a witness
is available but cannot recall making the out-of-court
statement, or even the events described in the
statement, there is no confrontation issue, since “[t]he

18
prosecution has no less fulfilled its obligation simply
because a witness has a lapse of memory.” Id. at 188.
In Delaware v. Fensterer, this Court emphasized,
“the Confrontation Clause guarantees an opportunity
for effective cross-examination, not cross-examination
that is effective in whatever way, and to whatever
extent, the defense might wish.” 474 U.S. 15, 20 (1985)
(emphasis in original). This Court further held:
The Confrontation Clause includes no guarantee
that every witness called by the prosecution will
refrain from giving testimony that is marred by
forgetfulness, confusion, or evasion. To the
contrary, the Confrontation Clause is generally
satisfied when the defense is given a full and
fair opportunity to probe and expose these
infirmities through cross-examination, thereby
calling to the attention of the factfinder the
reasons for giving scant weight to the witness’
testimony.
Id. at 21-22.
In United States v. Owens, 484 U.S. 554 (1988), this
Court, in a decision authored by Justice Scalia, held
that the Confrontation Clause is not violated by the
“admission of an identification statement of a witness
who is unable, because of a memory loss, to testify
concerning the basis for the identification.” Id. at 564.
In Owens, the victim had been beaten with a metal
pipe, resulting in severe memory impairment. Id. at
556. Despite his injuries, the victim identified the
defendant as his assailant when interviewed by
investigators several weeks after the assault. Id. At

19
trial, the victim remembered identifying the defendant
as his assailant during his interview with
investigators, but he could not remember the attack,
thus limiting the defendant’s ability to cross-examine
the victim. See id. at 556-57.
This Court found no violation of the Confrontation
Clause, “agree[ing] with the answer suggested 18 years
ago by Justice Harlan,” referring to his “scholarly
concurrence” in Green, 399 U.S. at 157-164, and
echoing Fensterer that “the Confrontation Clause
guarantees an opportunity for effective crossexamination, not cross-examination that is effective in
whatever way, and to whatever extent, the defense
might wish.” Owens, 484 U.S. at 559. Since the witness
was present at trial and subject to unfettered crossexamination, the Confrontation Clause was not
implicated. See id. at 560.
This Court further emphasized, “We do not think
that a constitutional line drawn by the Confrontation
Clause falls between a forgetful witness’ live testimony
that he once believed this defendant to be the
perpetrator of the crime, and the introduction of the
witness’ earlier statement to that effect.” Id. at 560.
Indeed, the Court observed, “The weapons available to
impugn the witness’ statement when memory loss is
asserted will of course not always achieve success, but
successful cross-examination is not the constitutional
guarantee. They are, however, realistic weapons, as is
demonstrated by defense counsel’s summation in this
very case, which emphasized [the witness’] memory
loss . . .” Id. at 560. Thus, because “the traditional
protections of the oath, cross-examination, and

20
opportunity for the jury to observe the witness’
demeanor” were satisfied, there was no Confrontation
Clause violation. Id. at 560.
Finally, in Crawford v. Washington, this Court held,
in another decision written by Justice Scalia, that the
admission of an out-of-court testimonial statement by
a witness who does not appear at trial violates a
defendant’s Sixth Amendment right to confront the
witness, unless the defendant had a prior opportunity
for cross-examination. 541 U.S. 36, 53-54 (2004). This
Court reiterated that “when the declarant appears for
cross-examination at trial, the Confrontation Clause
places no constraints at all on the use of his prior
testimonial statements. . . . The Clause does not bar
admission of a statement so long as the declarant is
present at trial to defend or explain it.” Id. at 59 n.9.
Here, the New York Court of Appeals correctly
applied this Court’s precedent, as set forth in Green,
Fensterer, Owens, and Crawford, and held that
although Cosgrove lacked memory of the circumstances
surrounding petitioner’s arrest, the introduction of his
grand jury testimony at trial did not violate the
Confrontation Clause because he testified “under oath
and in the presence of the accused” (Fensterer, 474 U.S.
at 20) and was subjected to cross-examination. See App.
15a-17a.
The main thrust of petitioner’s argument is that
Cosgrove’s lack of memory of the incident rendered him
unable “to defend or explain” his prior statement, so
cross-examination was “futile” (petition, p. 14). In
making this argument, petitioner seizes onto
Crawford’s remark in footnote nine, “[t]he

21
[Confrontation] Clause does not bar admission of a
statement so long as the declarant is present at trial to
defend or explain it.” 541 U.S. at 59 n.9 (emphasis
added). Thus, petitioner contends that the footnote in
Crawford “made clear that the confrontation right
depends on a witness’s ability to ‘defend or explain’ his
prior statement” (petition, p. 21). In essence, despite
that memory lapse was not at issue in Crawford and
that Justice Scalia authored both decisions, petitioner
suggests that Crawford abrogates, sub silentio, Owens’
holding that the Confrontation Clause is not implicated
when a witness, whose memory has failed, is present at
trial and available for cross-examination.
This Court should reject petitioner’s interpretation
of Crawford, as has virtually every state court of last
resort that has addressed this issue. See, e.g., State v.
Pierre, 277 Conn. 42, 86 (2006); Smith v. State, 25 So.
2d 264, 270 (Miss. 2009); State v. Legere, 157 N.H. 746,
754-755 (2008); Woodall v. State, 336 S.W.3d 634, 644
(Tex. Crim. App. 2011); State v. Price, 146 P.3d 1183,
1191 (Wash. 2006); see also Blunt v. United States, 959
A.2d 721, 727-31 (D.C. 2008) (holding that a witness’
asserted inability to remember the events of the
charged incident or the contents of her grand jury
testimony did not deprive the defendant of his Sixth
Amendment right of confrontation).
Petitioner’s isolation of the “to defend or explain it”
language divorces it from the proper context of the rest
of the footnote. Indeed, the Supreme Court of
Minnesota in State v. Holliday, 745 N.W.2d 556 (Minn.
2008), rejected the argument that Crawford required
“the declarant [to] actually defend or explain his

22
statement” because “such interpretation both ignores
the fact that the Court’s language still focuses on
presence and ability to act without requiring that the
record show the declarant actually did defend or
explain the statement, and is at odds with the Court’s
more explicit assertion that when the declarant
appears for cross-examination at trial, the
Confrontation Clause places no constraints at all on the
use of his prior testimonial statements.” 745 N.W.2d at
565-66 (internal citations and quotation marks
omitted). Even Goforth similarly held, “[i]mportantly,
the pertinent language does not require the record to
actually show that the defendant did in fact defend or
explain the statement. The language, rather, focuses on
‘presence and ability to act.’” 70 So. 3d at 186 (internal
citations omitted).
Succinctly stated, “[t]he rule set forth by [this
Court] in Crawford neither conflicts with nor abrogates
its earlier holding in Owens. Crawford considered the
admissibility of a prior statement made by a declarant
who was absent from trial, while Owens considered the
admissibility of a prior statement made by a declarant
testifying at trial.” Smith, 25 So. 3d at 270-71
(emphasis in original).
Petitioner claims that the New York Court of
Appeals erred, “elevat[ing] form over substance by
ignoring the fact that memory loss defeats the entire
purpose of cross-examination . . .” (petition, p. 15)
(emphasis added) and that “a declarant’s memory loss
renders cross-examination a meaningless formality”
(petition, p. 22) (emphasis added). But this complaint
ignores the central rationale of Crawford, that the

23
“Clause’s ultimate goal is to ensure reliability of
evidence, but it is a procedural rather than a
substantive guarantee. It commands, not that evidence
be reliable, but that reliability be assessed in a
particular manner: by testing in the crucible of cross
examination.” Crawford, 541 U.S. at 61 (emphasis
added). Thus, in Crawford, this Court maintained the
Confrontation Clause’s procedural guarantee: a
defendant must have the opportunity to cross-examine
a testifying witness. This Court, however, did not
rollback its longstanding precedent that “[t]he
Confrontation Clause includes no guarantee that every
witness called by the prosecution will refrain from
giving testimony that is marred by forgetfulness,
confusion, or evasion.” Fensterer, 474 U.S. at 21-22.
Crucially, petitioner effectively cross-examined
Cosgrove, therefore, undermining his complaint. Not
only was defense counsel able to establish Cosgrove’s
poor memory from his failure to recall the incident,
which is indeed, “often a prime objective of crossexamination” (see Owens, 484 U.S. at 559), she
capitalized on his lack of memory to undermine the
testimony of his partner, Bello, in her summation:
But you then have Lieutenant Cosgrove who
remembers nothing about this incident, which by
the way is probably much more consistent with
life than Sergeant [Bello] remember[ing]. . . .
every single thing about this incident, even
though it was four years ago and he’s had several
arrests since then, he had five years at the 44[th]
Precinct and had been up and down the street
making arrests before, and before that and after

24
that, Lieutenant Cosgrove came in and he said
he didn’t remember a thing, didn’t remember a
thing. He was a lieutenant in the police force.
C.A. App. 451. Counsel’s summation, therefore,
demonstrates the fruitful employment of effective
cross-examination as a “realistic weapon.” See Owens,
484 U.S. at 560 (“The weapons available to impugn the
witness’ statement when memory loss is asserted will
of course not always achieve success . . . They are,
however, realistic weapons, as is demonstrated by
defense counsel’s summation in this very case, which
emphasized [the witness’] memory loss . . .”).
Notably, to the extent that defense counsel’s tactics
may have been limited by Cosgrove’s lack of memory
regarding the incident, she nonetheless called into
question the accuracy of the transcription of his grand
jury testimony. Drawing from an apparent
typographical error in the transcript (C.A. App. 369; see
App. 5a), counsel asked Cosgrove, “having no memory,
independent of what you are reading, you cannot tell
this jury with any certainty that every single thing you
said was written down accurately; is that correct?”
C. A. App. 372. Cosgrove had no choice but to concede,
“No, I can’t, I guess.” Id. Thus, while Cosgrove lacked
memory of the incident, “other means of impugning”
Cosgrove’s prior statement were “available,” which
counsel exploited by attacking the grand jury
transcript. See Owens, 484 U.S. at 559. At bottom,
petitioner essentially complains about the result, the
lack of complete success in cross-examining Cosgrove,
“but successful cross-examination is not the
constitutional guarantee.” Owens, 484 U.S. at 560.

25
Petitioner analogizes Cosgrove’s lack of memory
with a witness who invoked the privilege against selfincrimination and “refused to answer any questions
concerning the alleged crime” (petition, p. 18) (citing
Douglas v. Alabama, 380 U.S. 415, 416 (1965)). In
Douglas, this Court concluded that the defendant’s
“inability to cross-examine [the witness] . . . denied him
the right of cross-examination secured by the
Confrontation Clause.” Id. at 420. Therefore, petitioner
urges this Court to apply, “[t]hat same logic . . . where
the declarant has a complete failure of memory on the
witness stand” (petition, p. 18).
This argument is meritless; this Court has already
explicitly differentiated these two situations that
petitioner hopes to analogize. While Owens recognized
that “limitations on the scope of examination by the
trial court or assertions of privilege by the witness may
undermine the process to such a degree that
meaningful cross-examination . . . no longer exists”
(484 U.S. at 561-62 (emphasis added)), “that effect is
not produced by the witness’ assertion of memory
loss—which . . . is often the very result sought to be
produced by cross-examination, and can be effective in
destroying the force of the prior statement.” Id. at 562;
see also United States v. Torrez-Ortega, 184 F.3d 1128,
1132-34 (10th Cir. 1999) (holding witness’ refusal to
answer questions “because of his obstinate and
repeated assertion of the privilege against selfincrimination” made him not subject to crossexamination under Douglas, and rejecting “the
government’s attempt to link by analogy cases in which
a witness professes loss of memory—real or
otherwise—and cases in which a witness simply

26
refuses to testify on the basis of an assertion of
privilege”). Here, Cosgrove asserted no privilege, did
not refuse to answer questions, and as discussed, was
subjected to effective cross-examination.
Finally, petitioner’s attempts to distinguish this
case from Owens fail. First, petitioner claims that
“Owens did not involve a witness’s total memory loss”
(petition, p. 19) (emphasis in original). Second,
petitioner argues, “that because [the witness’] memory
was already impaired at the time of his prior
identification, defense counsel was able to emphasize
[the witness’] memory loss as a way to undercut his
reliability” (petition, p. 20-21).
Initially, petitioner’s delineation between “partial”
and “total memory loss” is unhelpful, as courts below
have already rejected similar confrontation challenges
addressing “genuine or feigned” memory loss. See, e.g.,
Diggs v. United States, 28 A.3d 585, 594 (D.C. 2011);
Blunt v. United States, 959 A.2d 721, 729-30 (D.C.
2008) (finding no Confrontation Clause violation in
admission at trial of witness’s grand jury testimony
even if her inability to remember the crimes at trial
was feigned). That is because this Court has already
established that the “Confrontation Clause includes no
guarantee that every witness called by the prosecution
will refrain from giving testimony that is marred by
forgetfulness, confusion, or evasion.” Owens, 484 U.S.
at 558 (quoting Fensterer, 474 U.S. at 21-22). “Thus[,]
it is settled that memory loss . . . does not deprive the
defendant of the meaningful opportunity to crossexamine that the Confrontation Clause requires,” and
a “witness’s claimed inability to recall is regarded as a

27
form of the ‘forgetfulness, confusion, or evasion’ that
cross-examination is designed to emphasize, rather
than as a barrier to cross-examination.” Diggs, 28 A.3d
at 594.
In any event, the fact that the witness in Owens
remembered having made the prior identification is of
no moment; Owens explicitly rejected such a distinction
by “agree[ing] with the answer suggested 18 years ago
by Justice Harlan,” “that a witness’ inability to ‘recall
either the underlying events that are the subject of an
extra-judicial statement or previous testimony or
recollect the circumstances under which the statement
was given, does not have Sixth Amendment
consequence.’” Id. at 558-59 (quoting Green, 399 U.S. at
188 (Harlan, J., concurring)).6

6

Additionally, in United States. v. Milton, the D.C. Circuit
squarely rejected petitioner’s argument:
The Miltons nevertheless insist that Jones’ taking the
stand and responding to defense counsel’s questions
satisfied neither the rule, nor the Sixth Amendment’s
confrontation clause, because Jones “could not remember
the events underlying her prior testimony, [ ]or the fact
that she had given it.” The idea is that if the witness
recalls his prior testimony while forgetting why he said
what he did, cross-examination is more meaningful than
if, like Jones, the witness does not even recall his earlier
testimony. We believe the Supreme Court in Owens put
this argument to rest. It is true that in Owens the witness
at least recalled having identified the defendant. But the
Court did not restrict its reasoning to such situations.
Instead, the Court “agree[d] with the answer suggested” in
“Justice Harlan’s scholarly concurrence” in California v.
Green, that “a witness’ inability to ‘recall either the
underlying events that are the subject of an extra-judicial

28
Moreover, here, as in Owens, “defense counsel was
able to emphasize [the witness’] memory loss as a way
to undercut his reliability” (see petition, pp. 20-21).
Counsel was similarly able to utilize “other means of
impugning” the prior statement by attacking the
accuracy of the grand jury transcript. Owens, 484 U.S.
at 559. Indeed, Cosgrove candidly conceded that he
could not attest to the accuracy of the grand jury
transcript. C.A. App. 372. Thus, “the traditional
protections of the oath, cross-examination, and
opportunity for the jury to observe the witness’
demeanor satisfy the constitutional requirements.”
Owens, 484 U.S. at 560. Any shortcomings in the
witness’ memory may be made known to the jury, as
was done in this case.
Furthermore, as discussed in Point I, it cannot be
said that the extent of Cosgrove’s memory loss (or as
petitioner puts it, “total memory loss”) rendered his
cross-examination constitutionally infirm. At trial,
Cosgrove was able to testify that he had been working
from 11:00 p.m. to 7:45 a.m. with his partner, Bello, on
November 2, 2008. After referring to some police
paperwork, Cosgrove was able to further testify that he
had arrested two individuals on Jerome Avenue. C.A.
App. 350-51. Cosgrove, however, could not remember
the names of the arrestees or the circumstances
surrounding the arrests. C.A. App. 351-52. But
statement or previous testimony or recollect the
circumstances under which the statement was given, does
not have Sixth Amendment consequence.’”
8 F.3d 39, 47 (D.C. Cir. 1993), cert denied, 513 U.S. 919 (1994)
(internal citations omitted; alterations in original).

29
Cosgrove testified that he appeared before the grand
jury on November 6, 2008, that the event was fresh in
his mind at that time, that he testified truthfully and
accurately before the grand jury, and that his review of
the certified grand jury transcript did not refresh his
recollection. C.A. App. 352-53.
Thus, because petitioner was able “to literally
confront [Cosgrove] who . . . provid[ed] testimony
against [him] in a face-to-face encounter before the
trier of fact,” (App. 16a) even though Cosgrove’s
memory was faulty, the New York Court of Appeals
correctly determined that “Cosgrove’s presence at trial
as a testifying witness, where he was subjected to
cross-examination before the trier of fact who must
assess the credence and weight to be accorded to his
testimony as a whole, precludes [petitioner’s]
Confrontation Clause argument.” App. 17a.7

7

Petitioner echoes the dissenters below (see App. 35a), complaining
that under this “majority rule . . . New York and many other
jurisdictions now routinely permit defendants to be convicted
based on untested evidence that is tantamount to an ex parte
affidavit” (petition, pp. 22-23). This Court should reject this
sensational contention. As highlighted by the majority below in
countering the dissent’s “dire warning” (see App. 14a, n.5),
petitioner, here, similarly ignores the fact that Cosgrove testified
and was cross-examined, that the court repeatedly instructed the
jury that the past recollection recorded merely supplemented
Cosgrove’s trial testimony (see App. 5a-7a), and that it was the
jury’s role to consider the proper weight to accord to his testimony.
See App. 6a-7a.

30
III.

THIS CASE IS A POOR VEHICLE FOR
RESOLVING THIS ISSUE.

This Court should not reward petitioner’s
gamesmanship by granting certiorari. By highlighting
that the issue has been fully preserved (see petition, p.
25) for this Court’s review, petitioner ignores the fact
that this issue was entirely manufactured. Primarily,
this issue arose out of cynical gamesmanship in that
defense counsel demanded the People to call Cosgrove
to testify. The record below makes clear that the People
had no intention of calling Cosgrove to testify at trial,
precisely because he lacked memory and had been
retired for over a year. App. 3a. Defense counsel,
however, forced the issue by seeking a missing witness
charge if the prosecutor did not call Cosgrove to testify.
App. 3a. In producing Cosgrove, as defense counsel had
demanded, the prosecutor sought to admit the retired
officer’s grand jury testimony as a past recollection
recorded. App. 3a.
Defense counsel objected, asserting the
confrontation violation, but, nonetheless, declined to
withdraw her request for a missing witness charge,
inconsistently arguing that Cosgrove’s lack of memory
rendered him unavailable for cross-examination, but
available to the People for the missing witness charge:
THE COURT: Mr. Reynolds, am I right that
the only reason you were seeking to have him
testify was because you ... don’t want a missing
witness charge?
PROSECUTOR:

Yes.

31
THE COURT: If the Court rules that it was not
giving a missing witness charge, you would
therefore not be calling him?
PROSECUTOR:

That’s correct.

THE COURT: S o
since he’s physically
available and the People would only call him to
defeat your request for a missing witness
charge, will you now withdraw your request for
a missing witness charge, which means I will
not have to rule on this application and this
issue of whether this comes in or not is gone?
COUNSEL:
I will
application because he –
THE COURT:

not

withdraw my

Very well.

COUNSEL: -- because he still stands as a
witness who if he were called would not be
favorable to the People.
C.A. App. 334-35; see App. 3a-4a. Accordingly,
petitioner’s argument that the decision below
“[e]ncourag[es] the use of grand jury testimony as part
of the prosecution’s case-in-chief” (petition, p. 24) is
especially ironic, given that the People had no intention
of using it.
Thus, the record makes clear that defense counsel
demanded Cosgrove’s testimony as part of her “heads-I
win-tails-you lose” strategy, so petitioner should not be
heard to complain about Cosgrove’s testimony now.
See, e.g., United States v. Torres, 845 F.2d 1165, 1170
(2d Cir. 1988) (“courts have been reluctant to find a

32
witness practically unavailable when it appears that
the defense has no real interest in calling the witness
to the stand, but merely is engaged in a form of
gamesmanship in an effort to obtain a missing witness
charge”).
Additionally, during the pendency of his appeal,
petitioner was removed from the United States. See
App. 7a, n.3. Although, his removal might not render
the appeal completely moot under Sibron v. New York,
392 U.S. 40 (1968), this Court should decline granting
a writ of certiorari because further review would be of
marginal value to petitioner.
IV.

THERE IS NO COMPELLING REASON TO
REVIEW THIS ISSUE NOW.

This Court has routinely denied petitions that have
raised this issue, including as recently as March 5,
2018, when this Court denied a petition for writ of
certiorari for a case from Colorado that raised similar
arguments. See State v. Leverton, 405 P.3d 402 (Colo.
App. 2017) cert. denied, No. 17SC311, 2017 WL
4391829 (Colo. Oct. 2, 2017), and cert. denied sub nom.
Leverton v. Colorado, 138 S. Ct. 1265 (2018); see, e.g.,
State v. Holliday, 745 N.W.2d 556 (Minn. 2008), cert.
denied sub nom. Holliday v. Minnesota, 555 U.S. 856
(2008).
Thus, there is no need now for this Court once again
to revisit its Confrontation Clause jurisprudence.

33
V.

ANY ERROR WAS HARMLESS.

Although the New York Court of Appeals did not
rule on whether any error regarding the admission of
Cosgrove’s grand jury testimony was harmless, the
Appellate Division correctly determined that the
testimony was cumulative to the testimony of other
witnesses, even though the Appellate Division
misattributed Cosgrove’s observation from his grand
jury testimony to Bello’s trial testimony. App. 44a.
Indeed, the New York Court of Appeals determined
that Cosgrove’s grand jury testimony “was consistent
with Bello’s trial testimony, was brief and not
particularly detailed.” App. 5a.
All that was required to convict petitioner of
attempted assault in the first degree was evidence that
he acted in concert with another to inflict serious
physical injury with a dangerous instrument.8 Thus,
the conviction did not require evidence specifically
showing that petitioner was the man who slashed the
victim or, as described by Cosgrove’s grand jury
testimony, that petitioner kicked the victim in the head
while the victim was on the ground, bleeding.
Rather, there was ample evidence that petitioner
physically assaulted the victim in the altercation that
left the victim with “multiple injuries consistent with
being cut by a dangerous instrument.” App. 2a. Bello
saw petitioner “body slam” the victim onto the street
8

Under New York law, “[t]he key to understanding accessorial
liability is that whether one is the actual perpetrator of the offense
or an accomplice is, with respect to criminal liability for the
offense, irrelevant.” People v. Rivera, 84 N.Y.2d 766, 771 (1995)
(internal citations and quotation marks omitted).

34
and then drag him between the two parked cars. App.
2a; C.A. App. 204-206. After the officers broke up the
attack, Bello observed the victim bleeding profusely
from his face and neck. App. 2a; C.A. App. 206, 219.
The victim testified, “There were two people[] who
were hitting me, and [petitioner] [wa]s one of the
persons who did that” (C.A. App. 184), and that “I did
see them hitting me, but I could not say whether it was
him or the other guy [who was the slasher].” C.A. App.
184. The victim also testified that his assailants “were
kicking me everywhere” and “[t]hey were hitting me in
the head and other places . . .” C.A. App. 73, 91, 166.
Tellingly, the People did not even seek to call to
Cosgrove but for defense counsel’s application for the
missing witness charge. Thus, Cosgrove’s testimony
added little to the evidence that had already been
presented at trial and any error in its admission was
harmless.

35
CONCLUSION
The petition for a writ of certiorari should be
denied.
Respectfully submitted,
DARCEL D. CLARK
District Attorney
Bronx County
NANCY D. KILLIAN
Appeals Bureau, Chief

JAMES J. WEN
Assistant District Attorney
Counsel of Record
Office of the District Attorney
Bronx County
198 East 161st Street
Bronx, New York 10451
(718) 838-6669
wenj@bronxda.nyc.gov

Counsel for Respondent

